No. 20-138

DIY Tbe
6upreme Court of tije 1IIItrb 6tatos
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners,
V.

SIERRA CLUB, ET AL., Respondents.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners,
V.

STATE OF CALIFORNIA, ET AL., Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF WORD COUNT COMPLIANCE

Benjamin P. Sisney, a member of the Bar of this Court and an attorney for
amicus, pursuant to Rule 33.1(h), hereby certifies that the Amicus Curiae Brief
of the American Center for Law & Justice in Support of Petitioners complies
with the pertinent word limitations identified at Rule 33.1(g)(x).
According to the word count of the word-processing system used to prepare
the document, the body of the document, including footnotes (but exclusive of
all material preceding the Interest of Amicus and all material following the
last word of the text of the Conclusion), contains 6,000 words.

Is! Benjamin P. Sisney
Benjamin P. Sisney
American Center for Law & Justice
201 Maryland Avenue, NE
Washington, DC 20002
202-384-0259
bsisney@aclj.org
Counsel for Amicus Curiae
September 8, 2020

